DOCKET No: 20-1402
IN THE SUPREME COURT OF THE UNITED STATES
STEPHEN HAMMONDS, PETITIONER V. ROBERT THEAKSTON, ET. AL. RESPONDENTS
ON PETITION FOR WRIT OF CERTIORARI TO THE SUPREME COURT OF ALABAMA
RESPONDENTS’ CERTIFICATE OF SERVICE OF THE MOTION FOR EXTENSION OF TIME

Counsel of Record: Jamie Helen Kidd

Counsel for Respondent Robert Theakston and Matthew Martin
WEBB MCNEILL WALKER PC.

7475 Halcyon Pointe Drive (36117)

Post Office Box 240909

Montgomery, Alabama 36124

(334) 262-1850

jfrawley@wmwfirm.com

I hereby certify that on this the 4th day of May 2021, I electronically filed a
letter to the Clerk of the Supreme Court of the United States pursuant to Rule 30.4
seeking a thirty-day extension up to and including June 6, 2021, on behalf of
Respondents the Robert Theakston and Matthew Martin and served a copy of the
same on Counsel for Petitioners via electronic mail by consent of the Parties:

Daniel Patrick Evans, Esq.
- G. Daniel Evans

The Evans Law Firm, P.C.
1736 Oxmoor Road, Suite 101
Birmingham, Alabama 35209

(205) 870-1970 — T
dpevans@evanslawpc.com
gdevans@evanslawpc.com
Counsel for Petitioners
Respectfully submitted this the yt day of May 2021.

 

Robert Theakston and Matthew Martin

COUNSEL FOR RESPONDENTS ROBERT THEAKSTON AND MATTHEW MARTIN

Jamie Helen Kidd

J. Randall McNeill

Wess MCNEILL WALKER PC

7475 Halcyon Pointe Drive (36117)
Post Office Box 240909
Montgomery, Alabama 36124
(334) 262-1850 — T
jfrawley@wmwfirm.com
rmeneill@wmwfirm.com
